USCA Case 17 7150

pititeb $tatt
OlLt

FeU: 08/1012018

Docurerii 41745059

Page 1 at 2

1Iinxrt of ppiaI

FOR THE DISTRICT OF COLUMBIA CIRCUIT

September Term, 2017

No. 17-7150

1:15-cv-00625-TSC
Filed On: August 10, 2018
Veronica W. Ogunsula,
Appellant
V.
Staffing Now, Inc.,
Appellee

ON APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
BEFORE: Kavanaugh, Wilkins, and Katsas, Circuit Judges
JUDGMENT
This appeal was considered on the record from the United States District Court
for the District of Columbia and on the briefs filed by the parties. See Fed. R. App. P.
34(a)(2); D.C. Cir. Rule 340). Upon consideration of the foregoing and the motion for
leave to file an appendix, it is
ORDERED the that motion for leave to file an appendix be granted. The Clerk is
directed to file appellee's lodged appendix. It is
FURTHER ORDERED, on the court's own motion, that the Clerk is directed to
file the appendix lodged by appellant on May 24, 2018. It is
FURTHER ORDERED AND ADJUDGED that the district court's orders filed
January 19, 2017, May 11, 2017, and September 21, 2017 be affirmed. To establish a
prima facie case of employment discrimination, appellant was required to show that she
applied and was qualified for a job for which appellee was seeking applicants; despite
her qualifications, she was rejected; and after her rejection, the position remained open
and appellee continued to seek applicants from persons of her qualifications. See
McDonnell Douglas Corp. v. Green, 411 U.S. 792, 802 (1973); Aka v. Washington

Circuit Judge Kavanaugh was a member of the panel at the time the case was
submitted, but did not participate in this judgment.

USCA Case #17-7150

1xtit

Document p1745059

Filed: 08110/2018

$tate Qlintrt of

Page 2 of 2

ppea1

FOR THE DISTRICT OF COLUMBIA CIRCUIT

September Term, 2017

No. 17-7150

Hosp. Center, 156 F.3d 1284, 1288 (D.C. Cir. 1998) (en banc). Appellant has shown
no error in the district court's holding that she failed to make such a prima fade
showing.
Appellant argues that she lacked evidence in support of her claims because the
district court incorrectly denied her discovery motions. However, she has not
demonstrated that the court abused its broad discretion to manage the scope of
discovery. See SafeCard Servs., Inc. v. SEC, 926 F.2d 1197, 1200 (D.C. Cir. 1991).
Appellant's remaining claims of error were not raised in district court and are
raised for the first time on appeal in her reply brief, and we accordingly decline to
consider them. See United States v. Stover, 329 F.3d 859, 872 (D.C. Cir. 2003);
McBride v. Merrell Dow and Pharms., Inc., 800 F.2d 1208, 1210 (D.C. Cir. 1986).
Pursuant to D.C. Circuit Rule 36, this disposition will not be published. The Clerk
is directed to withhold issuance of the mandate herein until seven days after resolution
of any timely petition for rehearing or petition for rehearing en banc. See Fed. R. App.
P. 41(b); D.C. Cir. Rule 41.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
By:

Page 2

1sf
Michael C. McGrail
Deputy Clerk

USCA Case 417-7150 Document 01762600

!tnit

Fed: 12/03/2018

Iq§'tates (lLnxrt of

Page 1 of 1

ppia1i

FOR THE DISTRICT OF COLUMBIA CIRCUIT

September Term, 2018

No. 17-7150

1:15-cv-00625-TSC
Filed On: December 3, 2018
Veronica W. Ogunsula,
Appellant
V.

Staffing Now, Inc.,
Appellee

BEFORE:

Wilkins and Katsas, Circuit Judges

ORDER
Upon consideration of the amended petition for rehearing, the supplement
thereto, and the motion to recuse, it is
ORDERED that the motion to recuse be denied. Appellant has not
demonstrated that the court's impartiality might reasonably be questioned. See 28
U.S.C. § 455. It is
FURTHER ORDERED that the petition for rehearing be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Is!
Ken Meadows
Deputy Clerk

•i• L.
USCA Case #17-7150 Document #1762601

Filed: 12/03/2018 Page 1 of 1

thttt States Court of

pp-cal

FOR THE DISTRICT OF COLUMBIA CIRCUIT

No. 17-7150

September Term, 2018
1:15-cv-00625-TSC
Filed On: December 3, 2018

Veronica W. Ogunsula,
Appellant
V.

Staffing Now, Inc.,
Appellee

BEFORE: Garland, Chief Judge, and Henderson, Rogers, Tatel, Griffith,
Srinivasan, Millett, Pillard, Wilkins, and Katsas, Circuit Judges
ORDER
Upon consideration of the amended petition for rehearing en banc and the
supplement thereto, and the absence of a request by any member of the court for a
vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY:

Is!
Ken Meadows
Deputy Clerk

